WAIVER

Supreme Court of the United States

No. 21-333
Amro Elansari v. Maite Ragazzo, et al.
(Petitioner) (Respondents)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.

Please check the appropriate box:
O Jam filing this waiver on behalf of all respondents.

§® only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Maite Ragazzo

 

 

Please check the appropriate box:

& Iam a member of the Bar of the Supreme Court of the United States, (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

0 Iam not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme First Street, NE, Washington, D.C. 20543).

  
 

Signature

Date: September J 2021

 

(Type or print) Name Guy A. Donatelli, Esq.

 

 

 

 

Mr. OMs. O Mrs. O Miss
Firm ___Lamb McErlane PC
‘Address 24 E. Market Street, P.O. Box 565
City & State __ West Chester, PA Zip 19381-0565
Phone (610) 430-8000 Email _gdonatelli@lambmcerlane.com

 

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: Amro Elansari
